U.S. Department of                       The Inspector General     Office of Inspector General
Transportation                                                    Washington, D.C. 20590

Office of the Secretary
of Transportation



March 4, 2003

The Honorable Don Young
United States House of Representatives
Chairman, House Transportation and
 Infrastructure Committee
Washington, DC 20510

Dear Mr. Chairman:

In response to your request, we examined how the Department of Transportation
(“Department” or “DOT”) makes determinations of an air carrier’s citizenship
following a substantial change in ownership, management, or operations. We
specifically evaluated the informal process the Department used in reviewing
DHL Airways’ citizenship after the recent change in its ownership, as well as the
rationale the Department employed in finding that DHL Airways is a United States
citizen.

This document includes confidential business information as defined in 18 U.S.C.
§ 1905 and is for your official use only. We are also providing you with a redacted
version that contains no confidential business information and may be used for general
release.

When reviewing changes in air carrier ownership, the Department typically uses an
informal proceeding based on 14 C.F.R. § 204.5. Under this regulation, an air carrier
must disclose information concerning a substantial change in ownership, management,
or operations to the Assistant Secretary for Aviation and International Affairs
(“Assistant Secretary”). DHL Airways provided the Department such notice in the fall
of 2000. After conducting its informal review, the Department concluded that
DHL Airways met the requirements for U.S. citizenship. Following the Department’s
decision and after we had begun our review, the Department opened a consolidated
formal docket based on petitions filed by Federal Express (“FedEx”) and United Parcel
Service (“UPS”) contesting DHL Airways’ U.S. citizenship. This docket is currently
pending.
The Honorable Don Young
Page 2


After an extensive examination of the Department’s informal review, we identified a
number of issues the Department should address within the formal docket proceeding.
We provided our observations to the Department in advance of this response to you so
that it could have the benefit of our views before disposition of the consolidated docket.
We understand that the Department is considering several options to address the issues
we have raised.

I want to make clear that our views on the informal and formal processes used by the
Department and the issues we have identified should not be interpreted to presuppose a
particular outcome. It is the Department’s role to decide these matters and we defer
entirely to the Department in that regard.

BACKGROUND

The Department’s review was initiated in the fall of 2000 when DHL Airways disclosed
a substantial change in ownership, management, and operations to the Assistant
                                  1
Secretary as required by law. While the Department’s informal review of this
reorganization was in progress, the Department denied requests for formal proceedings
from FedEx and UPS that contested DHL Airways’ U.S. citizenship. In May 2002,
based on that review, the Assistant General Counsel (“AGC”) for International Law
                                                                  2
informed DHL Airways that it met U.S. citizenship requirements. Subsequently, the
Secretary and the Assistant Secretary advised members of Congress of the results of the
                                3
Department’s informal review. Following the Department’s decision and after your
request, the Department opened the consolidated formal docket that is currently pending
based on petitions filed by FedEx and UPS.

Under U.S. law no entity may provide air transportation between points within the
United States without possessing a certificate of public convenience and necessity
(“certificate”) issued by DOT. A prerequisite for a certificate is U.S. citizenship. There
are three statutory requirements governing corporation citizenship. The company must:

    • Be incorporated in the United States


1 14 C.F.R. § 204.5(c).
2 Letter from Assistant General Counsel for International Law Donald Horn to DHL Airways, dated May 7,
2002.
3 Letter from Secretary Norman Mineta to Senator Ernest Hollings, dated September 25, 2002; Letter from
Assistant Secretary Read Van de Water to Senator John D. Rockefeller IV, dated May 7, 2002.
The Honorable Don Young
Page 3


    • Have a president and two-thirds of the board of directors who are U.S. citizens
      and

    • Ensure that no less than 75% of its voting stock is owned by U.S. citizens.

There is little or no dispute that DHL Airways currently meets these three prerequisites.
However, the Department, and the Civil Aeronautics Board (“CAB”) before it, quite
correctly, have interpreted these requirements to mean that U.S. citizens be in control of
a carrier, both in form and in fact. To this end, the Department looks at the totality of
the circumstances to determine whether the carrier is, in fact, under the “actual control”
                  4
of U.S. citizens. There are seven factors that have recurred frequently in past orders of
the Department addressing the issue of actual control. These factors, while known to
Department and aviation attorneys, have not been delineated in any one public
document. Good public policy would suggest that the Department address these and
other factors in a document that is widely available.

In order to better understand the concerns raised over DHL Airways, it is important to
understand the DHL reorganization. This reorganization occurred as the result of the
acquisition of the global DHL network by Deutsche Post, the German postal monopoly
owned, in part, by the German government.




4 See, e.g., Acquisition of Northwest Airlines by Wings Holdings, Docket 46371, Orders 89-9-51, 91-1-41;
Wrangler Aviation, Inc., Dockets 47291 and 47389, Order 91-15-51.
The Honorable Don Young
Page 4




The chart below depicts the current structure of the DHL network and the relationship
between DHL Airways and Deutsche Post’s subsidiaries which comprise the DHL
organization:




                     Current DHL Network Ownership

                          Deutsche Post                  DHL International, Ltd.
                            Germany        100%                Bermuda
                                           ownership
                                                                         100% subsidiary

                                                        DHL Worldwide Express NV
                                                           Netherlands Antillies

                                                                         100% subsidiary

                                                        DHL Worldwide Express BV
                                                              Netherlands
                                                                          100% subsidiary


                      DHL Worldwide                        DHL Holdings (USA)
                       Express, inc.                     Incorporated in Delaware
                                           100%
                                           subsidiary
                                                                          25% voting
                                                                          45% equity
                                       ACMI
                                       agreement                                                    William Robinson
                                                            DHL Airways                                 U.S. citizen
                                                                                       75% voting
                                                                                       55% equity




Prior to September 2000, the DHL network was divided into two groups of companies.
One was controlled by DHL International Ltd., a Bermuda corporation, which was
responsible for operations outside the United States. The other was controlled by DHL
Worldwide Express, Inc., which conducted operations in the U.S. DHL Worldwide
Express, Inc. owned DHL Airways, which, as a DOT-certificated air carrier, was
considered a U.S. citizen.

In 2000, Deutsche Post increased its equity holdings in DHL International to 51% and
acquired all remaining equity in December 2002. Concurrently, a foreign DHL
International subsidiary bought out all the other shareholders in DHL Worldwide
Express, Inc. Among these shareholders was William Robinson (“Mr. Robinson”), a
U.S. citizen who owned 25% of the equity [43% of voting stock] in DHL Worldwide
Express, Inc. and served as a director. He also owned approximately 4.7% of DHL
International stock before Deutsche Post acquired 100% of its stock.
The Honorable Don Young
Page 5


Because foreign DHL companies purchased DHL Worldwide Express, Inc. (renamed
“DHL Holdings (USA)”), DHL Airways needed to be sold to U.S. citizens in order to
maintain its certificate requirements.     Accordingly, DHL Holdings (USA), a
foreign-owned subsidiary in the global DHL network, sold 55% of the equity and 75%
of the voting stock in DHL Airways to Mr. Robinson.

FORMAL AND INFORMAL PROCESSES FOR CITIZENSHIP DETERMINATIONS

The Department uses a formal process to determine the citizenship of carriers applying
for an initial certificate, which includes opportunities for third-party comments, open
dockets, and review of the carrier’s application and supporting documentation. Once a
carrier has been granted a certificate, the Department may periodically conduct a
“fitness review” to ensure that it is in compliance with DOT certificate requirements,
such as citizenship. Typically, a carrier undergoing a substantial change in ownership,
management, or operation undergoes a fitness review. In these circumstances, the
Department and the CAB have used an informal process to determine continued U.S.
citizenship. It is this type of process that the Department utilized between 2000 and
2002 with respect to DHL Airways.

The informal process used for citizenship reviews can be beneficial when the issues are
not complex or contentious by providing for open dialogue between the Department and
carriers to resolve matters expeditiously. However, the informal process is not as
transparent as the Department’s formal process and, therefore, it is not well-suited for
matters that are complex or that have become contentious and controversial. One reason
is that interested parties are not provided with notice, opportunity to comment, or access
to confidential documents, and there is no process for verifying the carriers’
representations, either in the form of sworn or certified statements.

The informal process was not well-suited to this case. As it evolved, it became clear
that it was complex, contentious, and controversial. After we initiated our review, the
Department shifted to a more formal process by accepting FedEx and UPS petitions and
opening a formal docket. While the current proceeding provides notice, comment, and
responsive pleadings, it does not have certain other attributes customarily associated
with a formal process, namely, access to confidential documents, similar to that
provided in the Delta, Northwest, Continental code-share and frequent-flyer program
reciprocity proceeding (“Alliance Carriers”), and verification, either in the form of
certification or sworn statements.
The Honorable Don Young
Page 6


The protection of confidential business information is one of the reasons cited by the
Department for conducting citizenship reviews informally. However, the Department
does have alternative tools that protect confidential information while permitting
meaningful third-party access. For instance, in the Alliance Carriers review, the
Department made confidential documents available to interested parties under “Rule
    5
12,” which allows third-party representatives to view such documents, provided that
they sign affidavits promising to keep the contents confidential. Use of such a
mechanism could help make the citizenship review process more transparent and serve
to narrow factual disputes.

For the future, we believe the Department should give consideration to a more
transparent and formal process in complex or contentious cases. To that end, the
Department’s procedures would have to be modified to provide public notice of the
initiation and completion of citizenship reviews; create dockets for third-party
comments; provide third-party access to confidential documents, similar to those used in
the Alliance Carriers review; and obtain sworn or certified statements.

It is in the best interests of the Department that its ultimate decision be perceived as
impartial and objective. In this regard, options available to the Department include
formal interrogatories under oath, public proceedings where confidential documents are
available to third parties under Rule 12, or use of an administrative law judge (“ALJ”) to
conduct fact-finding on significant matters in dispute. Under the Administrative
                                               6
Procedure Act and Departmental regulations, utilization of an ALJ does not impinge on
the ultimate decision-making authority of the Assistant Secretary.

FACTORS FOR DETERMINING ACTUAL CONTROL OF AN AIR CARRIER

Our review focused on the issues implicated by the documents examined by the
Department during the informal process as well as the parties’ pleadings in the formal
process.

As stated above, under U.S. law no entity may provide air transportation between points
within the United States without possessing a certificate, a prerequisite to which is U.S.
citizenship. There is little or no dispute that DHL Airways currently meets these three
prerequisites. The issue is whether DHL Airways is under the “actual control” of U.S.
citizens consistent with factors traditionally applied by the Department.

5 14 C.F.R. § 302.12.
6 5 U.S.C. 551 et seq.; 14 C.F.R. Part 302.
The Honorable Don Young
Page 7



In this context, we see two fundamental questions: 1) whether the contractual
agreements Deutsche Post has with DHL Airways, either standing alone or in their
cumulative effect, are so pervasive that they give Deutsche Post “actual control” over
DHL Airways; and 2) whether Mr. Robinson’s stock transactions, as detailed below,
were accompanied by other agreements, oral or written, express or implied, between
Mr. Robinson and Deutsche Post or its DHL subsidiaries that bear on the matter of
“actual control.”

As we understand it, various agreements have defined the relationship between
DHL Airways and Deutsche Post and its subsidiaries in the DHL network since the
change in ownership. These included the Aircraft, Crew, Maintenance, and Insurance
(“ACMI”) agreement as well as the provision of credit. Based on the pleadings filed by
the parties, we believe it would be responsive to all concerned for the Department’s
fact-finding and ultimate order to explicitly address these agreements in terms of:
1) what they require of DHL Airways; 2) what they require of Deutsche Post and its
wholly-owned DHL subsidiaries; and 3) the control or influence the agreements
effectively give Deutsche Post over the governance and operations of DHL Airways.
The Department will then be in a position to exercise its judgment as to how these
factors bear on the issue of whether or not DHL Airways is under the “actual control” of
U.S. citizens.

In addition to examining these written agreements involving DHL Airways and the
DHL network, there is also a related matter involving Mr. Robinson that is integral to
the Department’s review of this case. That is, whether Mr. Robinson, who holds 55%
of the equity and 75% of the voting stock in DHL Airways, has entered into
agreements or understandings, in addition to those enumerated above, express or
implied, orally or in writing, that bear on the matter of “actual control.” Mr. Robinson
is a U.S. citizen who owned 43% of the voting stock in DHL Worldwide Express, Inc.
and 25% of its equity before it was bought out by Deutsche Post. He also had owned
about 4.7% of DHL International stock before being bought out by Deutsche Post.
The Honorable Don Young
Page 8


OBSERVATIONS ON THE INDICIA OF ACTUAL CONTROL

Based on our review of the Department’s precedent, seven of the most commonly cited
factors used to determine actual control of an air carrier are listed below. In our
examination of the documents submitted in the course of the informal and formal
proceedings, three factors bearing on actual control have not been specifically cited by
the parties. They are:

   • Control via Super-Majority or Disproportionate Voting Rights – minority foreign
     owners may not have disproportionate influence with their voting rights.

   • Negative Control/Power to Veto – minority foreign owners cannot possess veto
     rights over major corporate decisions.

   • Buy-Out Clauses – a foreign entity may not be entitled to exercise buy-out
     clauses that, if exercised, would jeopardize the air carrier’s financial or
     operational ability to continue in business.

We have also identified four factors bearing on actual control that do appear to be in
dispute. These are:

   • Equity Ownership – the maximum total foreign-equity ownership of an air carrier
     typically permitted by the Department may be up to 49%.

      There are allegations in the formal proceedings that a subsidiary of Deutsche Post
      owned 52% of DHL Airways at some point before the reorganization, albeit it
      currently holds 45%. We recommend that the Department address whether this
      allegation is true and, if so, whether it has any legal significance in light of the
      current holding of 45%.

   • Significant Contracts – contracts with foreign entities may not be used to control
     the U.S. air carrier.

      As stated above, DHL Airways and DHL Holdings (USA), a foreign-owned
      subsidiary in the global DHL network which owns 45% of the equity in
      DHL Airways, are parties to an ACMI agreement.            Under the ACMI,
      DHL Airways performs air transportation services for the DHL network in the
      United States. The agreement provides that “the primary use” of DHL Airways
The Honorable Don Young
Page 9


     aircraft leased to DHL Holdings (USA) is to serve DHL Holdings (USA).
     Moreover, third-party business by DHL Airways using aircraft leased to DHL
     Holdings (USA) may not interfere with its obligations to the DHL network, and
     some profits resulting from third-party business on those aircraft are split equally
     between DHL Airways and DHL Holdings (USA). In turn, DHL Holdings
     (USA) reimburses DHL Airways for many of its operational costs for those
     aircraft which it leases, such as those associated with: leasing and financing of
     aircraft; cockpit crews and compensation for officers and employees;
     maintenance and repairs; taxes on property, gross receipts, and gross income;
     insurance; fuel; regulatory compliance; airport fees; over-fly permits; and fines.

     Over 90% of DHL Airways’ business derives from the DHL foreign network
     under the ACMI. During its review, DOT was concerned over DHL Airways’
     reliance on this contract and recommended that DHL Airways hire a marketing
     executive to increase third-party revenue. DHL Airways did subsequently hire a
     marketing executive, but, to the best of our knowledge, it has not materially
     increased third-party revenues.

     The parties to this dispute have alleged that the ACMI bears directly on the actual
     control of DHL Airways. Conversely, DHL Airways contends the ACMI is
     standard practice in the industry and has no bearing on actual control. It seems to
     us that the only way to resolve this issue is for the Department to determine the
     facts of the ACMI, apply them to the decisional criteria, and then determine what,
     if any, legal significance they have to the question of actual control of
     DHL Airways.

  • Credit Agreement/Debt – debt-instrument clauses or bankruptcy agreements
    cannot allow a foreign entity to control the air carrier.

     DHL International guaranteed to banks that DHL Holdings (USA) would make
     payments to DHL Airways under the ACMI so that DHL Airways could obtain
     loans and a $60-million line of credit. DHL Airways portrayed these guarantees
     as “no more than additional contractual support by one non-citizen entity of the
     contractual obligation of another non-citizen entity by a parent corporate entity to
     the financial institution funding the credit facility.” The Department should
     determine the facts and circumstances surrounding these guarantees and whether,
     as applied to the indicia of control factors, they carry any legal significance.
The Honorable Don Young
Page 10


  • Family Relationships/Business Relationships – a foreign citizen may not exert
    control over an air carrier through a U.S. citizen family member or business
    associate.

     Mr. Robinson is the pivotal American figure in DHL Airways. As the majority
     shareholder, Mr. Robinson appoints three of the four members of its board of
     directors. The Chairman of the Board is his personal attorney, another Member
     of the Board is the Chairman’s brother and Mr. Robinson’s personal financial
     advisor, and the third Robinson-appointed Board Member is the Chief Executive
     Officer of DHL Airways.

     It is important to keep in mind that DHL Airways had to remain a U.S. citizen in
     order to maintain its certificate entitling it to provide point-to-point service within
     the United States. To that end, DHL Worldwide Express, Inc. sold 55% of the
     equity and 75% of the voting stock in DHL Airways to Mr. Robinson, who was
     then a DHL Worldwide Express, Inc. director and major shareholder. Between
     the time of Deutsche Post’s acquisition of 51% of DHL International and its
     acquisition of the remaining 49%, Mr. Robinson sold his interests in
     DHL Worldwide Express, Inc. to a Deutsche Post-controlled subsidiary. As a
     result of these transactions, he made a net profit of $26 million.

     Mr. Robinson also owned 4.753% of the equity in DHL International, which
     Deutsche Post may have acquired either directly or indirectly. However, the
     documents submitted to the Department do not disclose the circumstances
     surrounding this sale, and, to the best of our knowledge, this issue has not been
     explored by the Department.

     In this context, the key issue is whether or not the facts and circumstances
     surrounding Mr. Robinson’s stock transactions and subsequent ownership of
     DHL Airways involve oral or written obligations, express or implied, that govern
     the relationship between DHL Airways and Deutsche Post. Mr. Robinson’s
     independence from the DHL network has been raised by the parties as a central
     issue in this proceeding. The stock purchase agreements were reduced to writing
     and reviewed by the Department during the course of its informal review. In our
     view, it is important to verify whether these agreements carried with them other
     implicit or explicit, oral or written, obligations on either party that bear on the
     question of actual control and, if so, that they undergo the same scrutiny as have
     the other agreements in this case.
The Honorable Don Young
Page 11




 We were pleased to be of assistance in this matter. If you have any questions or are
 in need of further assistance, please do not hesitate to contact me at (202) 366-1959,
 or my Deputy, Todd Zinser, at (202) 366-6767.

 Sincerely,



 Kenneth M. Mead
 Inspector General

 Enclosure
